LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 3, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

DR. EMMANUEL E. UBINAS-BRACHE, MD V. SURGERY CENTER OF TEXAS, LP

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on January 3,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Michael S. Alfred
Hallett & Perrin, PC
1445 Ross Avenue, Suite 2400
Dallas TX 75202
214.953.0053
malfred@hallettperrin.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 3rd day of January 2020.

